Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 MEDICARE ADMINISTRATIVE
CONTRACTORS’ PERFORMANCE




                    Daniel R. Levinson
                     Inspector General

                      January 2014
                     OEI-03-11-00740
EXECUTIVE SUMMARY: Medicare Administrative Contractors’ Performance
OEI-03-11-00740

WHY WE DID THIS STUDY

Given the billions of dollars awarded to Medicare Administrative Contractors (MACs)
and the critical role they play in administering the Medicare program, effective oversight
of MACs’ performance is important to ensure that they are adequately processing claims
and performing other assigned tasks.

HOW WE DID THIS STUDY

We collected performance assessment information from the Centers for Medicare &
Medicaid Services (CMS) and determined (1) the extent to which MACs met or did not
meet performance requirements reviewed by CMS and (2) the extent of CMS’s
performance assessment and monitoring of MACs. The study included 2 performance
periods for 13 MACs. The performance periods began and ended between
September 2008 and August 2011.

WHAT WE FOUND

MACs met the majority of quality assurance standards reviewed by CMS. However,
MACs did not meet one-quarter of the standards reviewed, and MACs had not resolved
issues with 27 percent of these unmet standards as of June 2012. MAC standards have
stringent performance requirements; a number of standards require 100-percent
performance compliance. CMS did not require action plans for 12 percent of unmet
standards, and unmet standards without action plans were almost four times more likely to
have issues go unresolved. MACs can earn award fees if their performance exceeds basic
requirements, and metrics are included in MACs’ award fee plans to encourage improved
performance. However, certain areas identified as problematic through quality assurance
reviews were not always included as metrics in MACs’ award fee plans. Two MACs
consistently underperformed across various CMS reviews, and CMS’s reviews of MACs,
while extensive, were not always completed timely.

WHAT WE RECOMMEND

We recommend that CMS (1) require action plans for all quality assurance standards not
met, (2) use the results of quality assurance reviews to help select award fee metrics for
review, (3) meet timeframes for completing quality assurance reports, (4) meet
timeframes for completing award fee determinations, (5) establish reasonable timeframes
for issuing contractor performance reports, and (6) seek legislative change to increase the
time between MAC contract competitions to give CMS more flexibility in awarding new
contracts when MACs are not meeting CMS requirements. CMS concurred with all
six recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................7 

Findings......................................................................................................10 

           MACs did not meet one-quarter of all quality assurance 

           standards reviewed by CMS ..........................................................10 

           MACs had not resolved issues with 27 percent of unmet 

           standards ........................................................................................12 

           Two MACs consistently underperformed across various CMS 

           reviews ...........................................................................................13 

           CMS’s performance reviews of MACs, while extensive, 

           were not always completed timely .................................................14 

Conclusion and Recommendations ............................................................17 

           Agency Comments and Office of Inspector General Response.....19 

Appendixes ................................................................................................20 

           A: MACs’ Coverage Areas and Performance Periods Reviewed 20 

           B: Performance Areas in Quality Assurance Surveillance Plans ..21 

           C: Information on Award Fees ......................................................24 

           D: Agency Comments ..................................................................28 

Acknowledgments......................................................................................31 

                   OBJECTIVES
                   1.	 To describe the extent to which Medicare Administrative Contractors
                       (MACs) met or did not meet performance standards reviewed by the
                       Centers for Medicare & Medicaid Services (CMS).
                   2.	 To determine the extent to which CMS assessed and monitored MACs’
                       performance.

                   BACKGROUND
                   Section 911 of the Medicare Prescription Drug, Improvement, and
                   Modernization Act (MMA) of 2003 required CMS to implement Medicare
                   contracting reform by replacing fiscal intermediaries and carriers with
                   MACs.1 The MMA required that all MAC contracts be awarded through
                   the Federal Acquisition Regulation (FAR) competitive bidding process.
                   Additionally, the MMA required that MAC contracts be competed not less
                   frequently than once every 5 years. CMS began awarding MAC contracts
                   in 2006 and initially awarded contracts for all 15 Part A and B (A/B) MAC
                   jurisdictions and all 4 Durable Medical Equipment (DME) MAC
                   jurisdictions.2 However, award protests and consolidation of some
                   jurisdictions have prevented some of the original jurisdictions from
                   becoming operational. As of December 2013, 16 MACs (12 A/B MACs
                   and 4 DME MACs) were operational and all Medicare claims were being
                   processed by MACs. CMS awarded $4.3 billion over a 5-year period for
                   these 16 contracts.3, 4
                   Functions Performed by the MACs
                   Through statements of work, CMS assigns specific functions to the MACs
                   and outlines performance standards for those functions. The functions
                   performed by the MACs include, but are not limited to, claims processing,

                   1
                     MMA, P.L. 108-173 § 911 (adding section 1874A of the Social Security Act, 42 U.S.C.
                   § 1395kk-1).
                   2
                     CMS originally planned to award 4 MAC contracts for processing home health and
                   hospice claims, in addition to the 15 MAC contracts it awarded for Parts A and B and the
                   4 it awarded for DME. However, in March 2007, CMS announced that it would
                   consolidate the workloads of the home health and hospice jurisdictions into four of the
                   A/B MAC contracts.
                   3
                     Each MAC contract consists of 1 “base year” (first year) with 4 “option” years. CMS
                   can exercise its option to renew the MAC’s contract for each of these 4 years. Effective
                   September 3, 2013, the contracting officer can exercise options only after determining
                   that the “contractor’s performance on [the] contract has been acceptable, e.g., received
                   satisfactory ratings.” 78 Fed. Reg. 46783, 46788 (Aug. 1, 2013) (adding FAR
                   17.207(c)(7)).
                   4
                     CMS intends to consolidate 10 of the original A/B MAC jurisdictions into
                   5 jurisdictions over the next several years. The consolidation will result in a total of
                   10 A/B MAC jurisdictions and 4 DME MAC jurisdictions.

Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                       1
                   provider enrollment, provider customer service, medical review, and
                   appeals.5
                   CMS’s Oversight of MAC Performance
                   Several divisions within CMS’s Medicare Contractor Management Group
                   are involved in MAC performance assessment, oversight, and monitoring.
                   The Division of Performance Assessment serves as the central point for
                   MAC performance assessment activities. For each MAC contract, this
                   division works with a contract administration team to carry out its
                   performance assessment activities. This team includes a contracting
                   officer, a Contracting Officer’s Representative (COR), a contract
                   specialist, MAC program analysts, business function leads, and technical
                   monitors.6 The team monitors MACs’ performance to ensure they are
                   providing the quality of service their contracts require.
                   CMS oversees MAC performance through a number of internal and
                   external audits as well as by (1) reviewing quality control plans,
                   (2) reviewing Quality Assurance Surveillance Plans (QASPs),
                   (3) determining award fees, (4) monitoring performance, and
                   (5) evaluating MACs through Contractor Performance Assessment
                   Reporting System (CPARS) reviews. According to the MAC Contract
                   Administration Guide, if CMS identifies deficient performance through its
                   quality control plan reviews, QASP reviews, or performance monitoring, it
                   requires the MACs to take corrective actions. CMS uses the results of
                   numerous external audits and reviews—such as the 912 system security
                   review, the Chief Financial Officer (CFO) audit, and the Statement on
                   Standards for Attestation Engagements Number 16 (SSAE-16) audit—to
                   assist it in overseeing MAC performance.7
                   Reviewing Quality Control Plans
                   According to the MAC statement of work, CMS requires each MAC to
                   develop and implement a quality control plan. This plan specifies
                   procedures to ensure that MAC services meet contract performance
                   requirements. For example, a MAC must have in place an inspection and
                   audit system, a mechanism to identify deficiencies in the quality of its
                   services, and a formal system to implement any necessary corrective


                   5
                     The A/B MACs handle enrollment for non-DME providers. DME MACs do not handle
                   enrollment for DME suppliers; instead the National Supplier Clearinghouse handles their
                   enrollment.
                   6
                     CORs were previously known as Contracting Officer’s Technical Representatives.
                   7
                     Section 912 of the MMA (adding subsection (e) to section 1874A of the Social Security
                   Act, 42 U.S.C. § 1395kk-1) requires the annual evaluation of, testing of, and reporting on
                   MACs’ information security programs. CMS uses the CFO audit to identify operational
                   weaknesses and improve internal controls and financial management. CMS uses the SSAE-16
                   audit to review MACs’ internal controls.

Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                         2
                   action. The MAC is required to submit its quality control plan to CMS no
                   later than 45 days after the contract is awarded.
                   CMS policy requires a review of the quality control plan and verification
                   of its implementation to ensure that the MAC is meeting the criteria
                   provided in the statement of work.8 The business function lead for the
                   quality control plan reviews the plan and recommends either acceptance or
                   rejection of the plan. If the business function lead recommends rejection,
                   he or she provides the COR with a statement of the reason(s) the plan is
                   being rejected along with a recommendation to return the plan to the MAC
                   for revision and resubmission by a specified date. This process continues
                   until CMS deems the plan satisfactory. The COR’s acceptance of the
                   MAC’s quality control plan is contingent on an onsite validation review.
                   To ensure sufficient review data, this review may be scheduled
                   approximately 3 to 4 months after the date the MAC becomes operational.
                   The MAC is required to submit an updated version of the quality control
                   plan annually at contract renewal, as well as when substantive changes
                   occur to the plan or when changes occur in the MAC’s quality operations.
                   According to CMS staff, when the MAC submits an updated plan after the
                   first contract year, CMS performs a “desk review,” i.e.,—a review that
                   does not involve a site visit. CMS performs an additional onsite review
                   only if there is a quality assurance issue that warrants it.
                   Reviewing Quality Assurance Surveillance Plans
                   Medicare contracting reform provisions require CMS to adhere to the
                   FAR, which requires agencies to develop QASPs when using
                   performance-based acquisition methods.9 CMS’s QASP for MACs
                   contains specific standards and methods for evaluating MACs’ work
                   against the performance requirements in the statement of work. All of the
                   performance requirements are provided to MACs during procurement;
                   however, the MACs do not know which specific standards will be
                   assessed during the QASP review. According to CMS staff, CMS decided
                   in May 2013 to begin providing QASP metrics to all MACs at the
                   beginning of every fiscal year to promote transparency.
                   CMS performs a QASP review for each MAC at the end of each
                   performance period.10 CMS reviews standards within a core set of areas


                   8
                     CMS, Medicare Administrative Contractor Quality Control Plan Review Protocol,
                   pp. 1–2, July 2011, and CMS, MAC Contract Administration Guide, p. 57, June 2011.
                   9
                     Section 1874A(a)(6) of Social Security Act, 42 U.S.C. § 1395kk-1(a)(6) (requiring
                   adherence to the FAR). 48 CFR § 37.601.
                   10
                      We use the phrase “performance period” to refer to the time period that is being
                   evaluated by CMS. The performance period is typically 1 year and generally corresponds
                   to the contract award date.

Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                     3
                   for all MACs. For example, within the “provider customer service” area,
                   there are standards regarding the length of time it takes to answer calls and
                   provide responses to inquiries. For each QASP performance standard,
                   CMS determines whether the MAC met the standard.
                   Within 30 days of the end of the performance period, CMS sends a draft
                   QASP Summary Report to the MAC.11 This draft report includes each
                   standard reviewed, a determination of whether each standard was met, and
                   narrative support for the determination. The MAC is given 7 days for
                   rebuttal, and CMS then has 14 days to respond to the rebuttal. For each
                   rebuttal submitted, the technical monitor, the business function lead, and
                   the COR must agree whether to accept or reject the rebuttal. CMS makes
                   any necessary revisions to the draft QASP Summary Report, incorporates
                   the MAC’s rebuttal and CMS’s response, and generates the final QASP
                   Summary Report.
                   MAC Action Plans. If an action plan is required for an unmet standard,
                   CMS requests it when the final QASP Summary Report is sent to the
                   MAC. CMS tracks the status of action plans through the MACs’ monthly
                   status reports. CMS may consider a deficiency identified in an action plan
                   to be corrected on the basis of self-reported or validated information in the
                   monthly status reports, a subsequent review by a technical monitor or
                   business function lead, or a subsequent QASP review.
                   Determining Award Fees
                   Medicare contracting reform provisions require CMS to provide MACs
                   with incentives to promote efficiency and quality of services.12 CMS
                   established MAC contracts as “cost plus award fee” contracts. According
                   to the FAR, such contracts provide a monetary incentive that the MAC
                   may earn in whole or in part on the basis of its performance.13
                   CMS and each MAC negotiate the dollar amount allocated for the MAC’s
                   award fee pool—i.e., the amount of the potential award fee. The MAC
                   may earn this award fee amount if it exceeds requirements in the statement
                   of work. The MAC is not guaranteed to earn a minimum amount of its
                   award fee pool; therefore, the MAC may earn none, some, or all of its
                   award fee.
                   The FAR requires each contract with an award fee to have an award fee
                   plan.14 This plan outlines (1) a list of metrics that will be reviewed, (2) the


                   11
                      CMS, Quality Assurance Surveillance Plan, Standard Operating Procedure, p. 6,

                   May 2011. 

                   12
                      Section 1874A(b)(1)(D) of the Social Security Act, 42 U.S.C. § 1395kk-1(b)(1)(D). 

                   13
                      48 CFR § 16.405-2. 

                   14
                      48 CFR § 16.401(e)(3). 


Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                          4
                   distribution of the award fee pool across the metrics, and (3) an
                   explanation of how each metric will be reviewed.
                   The MAC reviews a draft of the award fee plan that includes the metrics
                   that CMS will use to evaluate performance. CMS can include metrics in
                   MACs’ award fee plans on the basis of past performance or other criteria.
                   For example, if an area is deemed to be a critical function or is identified
                   as a problem, an award fee metric can be included to encourage improved
                   performance.15
                   As well as determining which award fee metrics to include in a MAC’s
                   award fee plan, CMS determines how to distribute the MAC’s award fee
                   pool among metrics. CMS considers a variety of factors when
                   determining how to distribute the award fee pool among metrics, such as a
                   MAC’s current and past performance in a given area.
                   Within 90 days of the end of the performance period, CMS sends the
                   MAC a determination letter containing the amount of award fee earned.
                   The total award fee amount that a MAC earns depends on the amount
                   assigned to each award fee metric and the MAC’s performance on each
                   metric. Depending on CMS’s assessment of the MAC’s performance,
                   MACs may earn none, some, or all of the award fee for each metric.
                   Beginning in July 2009, CMS included language in each award fee plan
                   stating that a MAC must receive a CPARS rating of satisfactory or higher
                   in all areas to be eligible to earn any award fee.
                   Monitoring Performance
                   In addition to reviewing quality control plans and QASPs and determining
                   award fees, CMS policy requires other performance monitoring
                   throughout the MACs’ performance period.16 Members of the contract
                   administration team compile MAC performance information related to
                   their specific areas of Medicare operations. The Division of Performance
                   Assessment maintains the findings of MAC-monitoring activities that are
                   conducted across CMS, such as the CFO financial audit, the
                   Comprehensive Error Rate Testing program, the SSAE-16 and SAS 70
                   audits, and the section 912 information security reviews.17 To identify any
                   MAC performance issues, team members also review the monthly status
                   reports that MACs submit to CMS. In addition, CMS may conduct the
                   following types of reviews:


                   15
                        CMS, MAC Contract Administration Guide, p. 61, June 2011. 

                   16
                        Ibid., pp. 53–55.

                   17
                     The Comprehensive Error Rate Testing program measures improper payments in the 

                   Medicare program. SAS 70 (Statement on Auditing Standards No. 70: Service 

                   Organizations) audits review an organization’s internal controls. 


Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                      5
                   Onsite Visits and Reviews. According to CMS policy, CMS staff typically
                   visit a MAC for onsite reviews at least once every 2 months and
                   participate in face-to-face meetings with MAC managers.18 Topics
                   discussed during these meetings may include, but are not limited to, the
                   most recent monthly status report, progress on significant and/or ongoing
                   issues, new issues or concerns, and innovations.
                   Data Validation Reviews. The MAC is responsible for reporting to CMS
                   certain performance information, such as data on the timeliness of claims
                   and appeals. Occasionally, CMS will validate the data for accuracy and
                   compliance with CMS instructions. The results are forwarded to the
                   Division of Performance Assessment.
                   Ad Hoc Reviews. CMS may conduct ad hoc reviews. Any irregularity
                   identified through CMS’s performance monitoring and data validation
                   may warrant an ad hoc review. Staff within the Division of Performance
                   Assessment or members of the contract administration team can
                   recommend initiation of such a review. However, each ad hoc review
                   must be authorized and approved by the COR.
                   According to CMS staff, if issues are identified through performance
                   monitoring, staff work with the MAC to resolve the problems
                   immediately. If the issues identified are long-term in nature, the COR may
                   request a plan from the MAC to address the issues. These plans are
                   documented separately from QASP action plans.
                   Evaluating MACs through CPARS Reviews
                   At the time of our review, the FAR required the preparation of
                   performance evaluations at the completion of contracts.19 In addition, it
                   required interim evaluations for contracts with a performance period,
                   including option years, exceeding 1 year.20 Although the FAR did not
                   specify the timing of these interim evaluations, Department of Health and
                   Human Services (HHS) policy requires that for contracts of 3 years or
                   more, agencies conduct interim assessments at 12-month intervals after the
                   contract is awarded.21 CMS policy states that all MAC performance



                   18
                      CMS, MAC Contract Administration Guide, p. 101, June 2011.

                   19
                      After our review period, the requirements for contractor performance information at 

                   FAR subpart 42.15 were amended, effective September 3, 2013. 78 Fed. Reg. 46783

                   (Aug. 1, 2013). The amendments include requiring annual performance evaluations,

                   requiring all performance evaluations to be entered electronically into CPARS, requiring 

                   award-fee performance ratings to be entered into CPARS, and requiring use of 

                   standardized evaluation factors and performance rating categories. 

                   20
                      48 CFR § 42.1502(a). 

                   21
                      HHS, Acquisition Policy Memorandum 2009-07, December 23, 2009, p. 5. Accessed 

                   at http://www.hhs.gov/asfr/ogapa/acquisition/policies/ on December 14, 2011.

Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                         6
                   evaluations shall be retained in the CPARS system.22 CMS monitors its
                   compliance with CPARS reporting requirements on a monthly basis.
                   According to CMS staff, the agency has a very high compliance rate for
                   completing MAC CPARS reports in comparison to the rates for other HHS
                   agencies’ completion of CPARS reports. In addition, CMS’s Medicare
                   Contractor Management Group has developed and implemented a CPARS
                   template to ensure the consistency of CPARS evaluations across MAC
                   contracts.
                   For the CPARS evaluation, the COR considers all the different reports,
                   information, and individual experience that he or she has with the MAC
                   and condenses it into the CPARS report format. The COR rates the MAC
                   on a five-point scale from “unsatisfactory” to “exceptional” in areas
                   including quality of services, schedule, cost control, business relations,
                   and management of key personnel. The COR uses various sources of
                   information to rate the MAC’s performance. These include, but are not
                   limited to, results from reviews of quality control plans and QASPs,
                   monthly status reports, and performance monitoring information.
                   According to CMS policy, the COR’s draft evaluation is due 90 days after
                   the end of a MAC’s base year and each option year, but may take longer
                   depending on the availability of necessary information.23 Once all reviews
                   of the draft report are completed, the contracting officer enters the final
                   report into the CPARS system.
                   Related Work
                   In March 2010, the Government Accountability Office (GAO) issued a
                   report that described how CMS assessed MAC performance.24 According
                   to this report, the MACs’ performance improved over time, but did not
                   meet all standards. GAO analyzed CMS’s assessment of three MACs for
                   which assessment results were available at the time.

                   METHODOLOGY
                   Scope
                   We collected data for the 13 MACs (9 A/B MACs and 4 DME MACs) that
                   had been operational for at least 2 years as of January 2012. For these
                   13 MACs, we selected the 2 most recent performance periods for which
                   the required performance reviews had been completed. Across the MACs,
                   the earliest 2-year performance period reviewed was from September 2008

                   22
                      CMS, MAC Contract Administration Guide, p. 23, June 2011. 

                   23
                      Ibid., p. 114. 

                   24
                      GAO, Medicare Contracting Reform: Agency Has Made Progress with 

                   Implementation, but Contractors Have Not Met All Performance Standards, GAO-10-71,

                   March 2010. 


Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                  7
                   to September 2010 and the latest 2-year performance period reviewed was
                   from August 2009 to August 2011. CMS awarded $3.2 billion over a
                   5-year period for these 13 contracts. Appendix A lists the MACs’
                   coverage areas and performance periods selected.
                   Data Collection
                   We requested all data from CMS. We collected the following information
                   on CMS’s reviews of the 13 MACs’ performance for 2 performance
                   periods:
                   	 information on reviews of quality control plans, reasons for CMS’s
                      rejection of any of these plans, and the dates of any onsite validation
                      reviews conducted;
                   	 final QASP Summary Reports; the dates the QASP reviews were
                      conducted; and CMS’s determination of whether standards were met,
                      action plans were required, and issues were resolved;
                   	 letters containing award fee determinations and the dates these letters
                      were sent to the MAC;
                   	 information on performance monitoring, such as onsite reviews,
                      ad hoc reviews, and data validation reviews; and
                   	 CPARS evaluation reports and the dates the CPARS reports were
                      finalized.25
                   We followed up by telephone and email to clarify CMS’s responses. We
                   collected data from March 2012 through November 2012.

                   Data Analysis
                   We reviewed the dates provided by CMS regarding its onsite validation
                   reviews of MACs’ quality control plans to determine whether CMS
                   conducted these reviews in the MACs’ base years.
                   We reviewed the final QASP Summary Reports to identify the areas CMS
                   reviewed, determine how many performance standards were evaluated,
                   and calculate the number and percentage of standards that CMS
                   determined were met and not met. We compared the numbers and
                   percentages of standards not met across MACs, performance periods, and
                   performance areas. We analyzed data provided by CMS to calculate the
                   following for each MAC: (1) the time between the end of the performance
                   period and the date CMS sent the draft QASP Summary Report,26 (2) the

                   25
                      A CPARS evaluation report is considered finalized when the contracting officer enters
                   it into the CPARS system.

                   26
                      We used the end date of the QASP evaluation period in our calculation, but for

                   consistency, we use the phrase “performance period” in our report.


Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                        8
                   time between the date CMS submitted the draft version of this report and
                   the date it completed the final version, (3) the number of action plans
                   CMS required, (4) and the number and percentage of issues that CMS
                   determined were resolved and not resolved.
                   We reviewed the award fee determination letters to determine how many
                   and which award fee plan metrics CMS assessed. We calculated (1) the
                   number and percentage of award fee plan metrics for which each MAC
                   earned none, some, or all of its award fee; (2) the total award fee pool and
                   the total amount earned; and, (3) the time between the end of the
                   performance period and the date CMS sent the award fee determination
                   letter to the MAC.27 We compared the numbers and percentages of metrics
                   for which MACs earned award fees across performance periods and across
                   MACs.
                   We determined the extent to which CMS conducted performance
                   monitoring throughout the performance periods. We reviewed information
                   on CMS’s performance monitoring to determine whether CMS conducted
                   onsite visits, ad hoc reviews, and data validation reviews.
                   For each MAC, we calculated the time between the end of the
                   performance period and the date CMS finalized the CPARS report. For
                   one CPARS evaluation, CMS was not able to provide the date the final
                   report was entered into CPARS.
                   To retain MACs’ anonymity, we randomly assigned a unique identifier
                   (i.e., a letter) to identify each MAC throughout this report.
                   Limitations
                   Although we followed up with CMS to clarify information provided, we
                   did not independently verify CMS’s responses regarding its reviews of
                   MACs’ performance.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




                   27
                     We used the end date of the award fee evaluation period in our calculation, but for
                   consistency, we use the phrase “performance period” in our report.

Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                         9
                   FINDINGS
                   MACs did not meet one-quarter of all quality
                   assurance standards reviewed by CMS
                   There were 1,201 standards included in MACs’ QASP reviews for
                   2 performance periods. Overall, MACs did not meet 26 percent, or
                   310, of these standards. CMS conducts QASP reviews to ensure that
                   MACs are providing the quality of services required in their contracts.
                   MACs are expected to comply with stringent performance requirements
                   for QASP standards; a number of standards require 100-percent
                   performance compliance.
                   QASP reviews include standards in eight areas.28 Each area and examples
                   of standards within each area are listed in Appendix B. For example,
                   QASP reviews evaluate whether MACs’ processes meet all CMS
                   requirements in areas such as processing claims, managing appeals,
                   handling claims for which Medicare is the secondary payer, and enrolling
                   providers. The number of QASP standards CMS reviewed varied by
                   MAC and by performance period.
                   Of the 13 MACs in our review, 7 did not meet 25 percent or more of their
                   QASP standards. The percentage of unmet standards ranged from
                   13 percent to 48 percent. One MAC did not meet one or more standards in
                   all eight areas.
                   Most MACs’ (10 of 13) performance improved over the two performance
                   periods. Of the 534 standards included in QASP reviews for the first
                   performance period, 158 (30 percent) were not met. Of the 667 standards
                   included in QASP reviews for the second performance period,
                   152 (23 percent) were not met. However, five MACs (38 percent) still did
                   not meet over one-quarter of their QASP standards reviewed in the second
                   performance period. The percentage of standards not met in the second
                   performance period ranged from 6 percent to 50 percent.
                   MACs did not meet over 40 percent of QASP standards in
                   three areas
                   For three of eight QASP performance areas, MACs did not meet over
                   40 percent of standards. Overall, MACs did not meet 51 percent of
                   standards in the area of provider enrollment. In this area, CMS evaluated
                   MACs’ accuracy and timeliness in processing provider enrollment
                   applications and revocations. For example, some MACs did not meet the
                   requirement to accurately process 98 percent of provider applications in

                   28
                      Two of the eight areas—“audit and reimbursement” and “provider enrollment”—are
                   included only in QASP reviews of A/B MACs.

Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                     10
                   accordance with instructions in CMS’s Medicare Program Integrity 

                   Manual. Additionally, five of nine MACs did not meet one or more 

                   standards in this area for two performance periods.29

                   Overall, MACs did not meet 45 percent of the standards in the “Medicare
                   secondary payer” area. In this area, CMS evaluated MACs’ timeliness
                   and accuracy in processing claims for which Medicare is not the primary
                   payer. For example, some MACs did not meet the requirement to respond
                   to 95 percent of inquiries regarding Medicare secondary payer claims
                   within 45 days from receipt of the inquiry. Additionally, 12 of 13 MACs
                   did not meet 1 or more standards in this area for 2 performance periods.
                   Overall, MACs did not meet 43 percent of standards regarding their
                   appeals processes. In this area, CMS evaluated MACs’ timeliness and
                   accuracy in managing appeals. For example, some MACs did not send
                   100 percent of appeal decision notices within 60 days of receipt of appeals
                   as required. Additionally, 12 of 13 MACs did not meet 1 or more
                   standards in this area for 2 performance periods. Table 1 shows the
                   number and percentage of standards MACs did not meet in each area CMS
                   reviewed.
                  Table 1: Number and Percentage of Unmet QASP Standards in Each
                  Performance Area

                                                                   Number of       Number of   Percentage of
                    Performance Area                               Standards       Standards      Standards
                                                                    Reviewed         Not Met        Not Met


                   Provider Enrollment                                        90         46             51%

                   Medicare Secondary Payer                               186            84             45%

                   Appeals                                                183            79             43%

                   Audit and Reimbursement                                207            36             17%

                   Medical Review                                             42          7             17%

                   Provider Customer Service Program                      196            32             16%

                   Financial Management                                   178            23             13%

                   Claims Processing                                      119             3              3%

                      Total                                             1,201            310            26%

                  Source: OIG analysis of final QASP Summary Reports, 2012.




                   29
                      As noted in the previous footnote, “provider enrollment” is one of the two areas
                   included only in QASP reviews of A/B MACs.

Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                             11
                   CMS did not always include areas identified as problematic
                   through QASP reviews as metrics in MACs’ award fee plans
                   MAC contracts include an award fee that a MAC may earn if its
                   performance exceeds basic requirements, and metrics can be included in a
                   MAC’s award fee plan to encourage improved performance. The purpose
                   of an award fee is, in general, to differentiate performance that is merely
                   satisfactory from performance that demonstrates that a MAC has exceeded
                   the requirements in its statement of work. As a result of changes that
                   CMS made beginning in July 2009, MACs cannot earn any award fee if
                   they do not attain a CPARS rating of satisfactory or higher in all areas.
                   From an overall award fee pool of $39 million across two performance
                   periods, MACs earned two-thirds, or $26 million.
                   Regarding QASP reviews, MACs did not meet 45 percent of the QASP
                   standards in the “Medicare secondary payer” area. However, CMS did not
                   include any metrics from this area in any MACs’ award fee plans.
                   Additionally, although issues with provider enrollment were identified
                   through QASP and other reviews, CMS included provider enrollment
                   metrics in the award fee plan for only one MAC. Moreover, although
                   MACs did not meet 51 percent of QASP standards regarding provider
                   enrollment, metrics in this area made up less than 1 percent of award fee
                   metrics that CMS assessed. Appendix C describes the award fee metrics,
                   the award fees earned by MAC, and the award fees earned by metric.
                   MACs had not resolved issues with 27 percent of
                   unmet standards
                   For the 310 QASP standards that MACs did not meet, CMS determined
                   that, as of June 2012, MACs had not resolved issues with 83, or 27 percent,
                   of the unmet standards. MACs had not resolved issues with 18 standards
                   that were not met in the first performance period and issues with
                   65 standards that were not met in the second. Of the 83 standards not met,
                   over half involved provider enrollment (18), appeals (13), or audit and
                   reimbursement (13).
                   CMS did not require action plans for 12 percent of unmet
                   standards, and unmet standards without action plans were
                   almost four times more likely to have issues go unresolved
                   When MACs do not meet a standard, CMS can—but does not always—
                   require the MAC to submit an action plan to resolve issues related to that
                   standard. For example, according to CMS staff, if the MAC had one error
                   that caused it to not meet a standard but the MAC was in compliance for
                   the rest of the performance period, CMS may choose not to require an
                   action plan. Additionally, CMS may not require an action plan if it has



Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                          12
                   waived a contract requirement because of an issue beyond the MAC’s
                   control, such as a CMS system failure.
                   CMS did not require action plans for 37 of the 310 standards MACs did
                   not meet. When CMS did not require MACs to have action plans for
                   unmet standards, the issues with those standards were almost four times
                   more likely to go unresolved. Of the 37 standards for which CMS did not
                   require action plans, issues with 76 percent were not resolved. In contrast,
                   of the 273 standards for which CMS required action plans, issues with
                   20 percent were not resolved.
                   Two MACs consistently underperformed across
                   various CMS reviews
                   Two MACs, designated as V and Y in this report, consistently
                   underperformed across various CMS reviews. MAC V’s quality control
                   plan was initially rejected because the document it submitted was not
                   deemed a quality control plan. Additionally, CMS’s onsite validation
                   review of MAC Y’s quality control plan uncovered flaws regarding the
                   MAC’s inspection and audit system, as well as its procedures for
                   corrective action.
                   Both MACs did not meet a high percentage of QASP standards. MAC V
                   had the highest percentage of unmet standards (48 percent) and MAC Y
                   had the third-highest percentage of unmet standards (31 percent). For
                   MAC V, over half of the issues identified through its QASP reviews had
                   not been resolved.
                   CMS awarded the lowest percentage of award fees to these two MACs—
                   35 and 40 percent of their respective award fee pools. For MAC V, CMS
                   reduced the overall percentage of the MAC’s award fee earned to
                   40 percent in one performance period because of its poor performance in
                   key areas. CMS noted MAC V’s failure to make system changes; a high
                   volume of complaints regarding its customer service program for
                   providers; and its failure to meet basic performance requirements, such as
                   those regarding appeals processing. Additionally, MACs V and Y were
                   the only two MACs that did not earn any award fee for the contract
                   administration metric during one performance period. This metric
                   evaluates a MAC’s overall ability to manage its contract, specifically in
                   areas such as communication, flexibility, staffing, and cost management.
                   For MAC Y, concerns regarding a backlog in provider enrollment led
                   CMS to increase oversight and monitoring activities, including putting the
                   MAC under an ad hoc review for an entire performance period. As part of
                   this review, the MAC was required to send daily reports of provider
                   enrollment to CMS and to have biweekly update calls with CMS


Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                           13
                   management. MAC Y received onsite visits nearly twice a month in both
                   performance periods we reviewed.
                   When the contract for MAC Y’s jurisdiction was recompeted, the contract
                   was awarded to a different contractor. As of December 2013, MAC V’s
                   contract was still in effect and the recompete for the jurisdiction had not
                   yet been completed.
                   According to CMS staff, the agency has considered not renewing contract
                   option years for MACs performing at substandard levels. However, it
                   takes approximately 1 year for CMS to solicit and award a new contract.
                   With only 4 option years for each contract, CMS reported that the
                   resources and risk involved in conducting an unforeseen procurement to
                   replace a poorly performing MAC made such a decision impractical.
                   CMS’s performance reviews of MACs, while
                   extensive, were not always completed timely
                   Overall, CMS conducted extensive activities to review MACs’
                   performance. Because MAC reviews provide important performance
                   information and can be used to support future award decisions, it is
                   important that CMS complete these reviews timely. However, CMS did
                   not always do so.
                   Quality Control Plan Reviews. CMS policy requires it to conduct an
                   onsite review to determine whether MACs have implemented their quality
                   control plans.30 This onsite review may be conducted within 3 to 4 months
                   of the date the MAC becomes operational.31 According to CMS staff,
                   CMS strives to complete the review during the MAC’s base year. The
                   performance periods we reviewed included the base year for three MACs.
                   For one of the three, the onsite validation review was conducted in the
                   base year. For the remaining two MACs, there was no onsite validation
                   review in the base year. However, both of these MACs had an onsite
                   validation review in the next year of the contract. According to CMS
                   staff, some onsite validation reviews that should have been conducted in
                   the base year may not have been conducted because of a lack of travel
                   funds or staff.
                   QASP Reviews. As required, CMS completed a QASP review for each of
                   the 13 MACs’ performance periods in our review. CMS’s QASP Standard
                   Operating Procedure (SOP) establishes an internal timeframe of 51 days



                   30
                      CMS, Medicare Administrative Contractor Quality Control Plan Review Protocol, 

                   pp. 1–2, July 2011.

                   31
                      Ibid., p. 2.


Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                      14
                   for completing final QASP reports.32 However, none of the QASP reviews
                   met that timeframe. On average, final QASP reports were sent more than
                   5 months after the end of the QASP performance period.
                   According to the QASP SOP, the draft QASP Summary Report must be
                   sent to the MAC within 30 days of the end of the performance period.
                   CMS sent draft QASP reports between 34 and 155 days after the end of
                   the performance period, with an average of 99 days after.
                   The QASP SOP also states that once the draft report has been sent, the
                   MAC has 7 days to provide a rebuttal and CMS has 14 days to respond to
                   the rebuttal and generate the final QASP Summary Report. However,
                   CMS sent 24 of the 26 final QASP Summary Reports more than 21 days
                   after the draft reports were sent. The average number of days between the
                   date of the draft report and the date of the final QASP Summary Report
                   was 62 days.
                   CMS reported that, to improve timeliness, it revised QASP procedures in
                   July 2012 so that all QASP reviews are begun 30 days before the end of
                   the performance period. In addition, CMS staff reported that in
                   October 2012, the agency instituted a strategy to ensure compliance with
                   internal due dates for QASP reports.
                   Award Fee Determinations. According to CMS staff, award fee
                   determinations are completed through an extensive process involving
                   numerous staff, including members of the contract administration team,
                   CMS managers, and an award fee determining official. As required, CMS
                   made award fee determinations for each of the 13 MACs’ performance
                   periods in our review. According to timeframes set forth in the MAC
                   Contract Administration Guide, CMS must send award fee determination
                   letters to MACs within 90 days of the end of the performance period.
                   However, CMS sent only one such letter to a MAC within 90 days. The
                   number of days between the end of the performance period and the date
                   the award-fee determination letter was sent ranged from 89 to 214. On
                   average, award fee determination letters were sent to MACs 135 days after
                   the end of the performance period. According to CMS staff, as of
                   July 2013, CMS was in the process of updating the MAC Contract
                   Administration Guide and intended to revise the award fee determination
                   timelines in accordance with best practices.
                   CPARS Evaluations. As it does with award fee determinations, CMS goes
                   through an extensive process to finalize MACs’ CPARS reports. CPARS

                   32
                     CMS must submit the draft QASP Summary Report to the MAC within 30 days of the
                   end of the performance period. The MAC then has 7 days to provide a rebuttal, and CMS
                   has 14 days to respond and generate the final QASP Summary Report.

Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                    15
                   evaluations provide summaries of CMS’s various performance reports and
                   experiences with the MACs. According to CMS guidelines, draft CPARS
                   reports should be submitted for review to the Program Management
                   Division Director within 90 days of the end of the performance period.33
                   However, during our review timeframe, CMS did not track the submission
                   date of the draft reports. CMS guidelines for completing CPARS
                   evaluations do not include timeframes for finalizing reports. CMS staff
                   reported that in October 2012, the agency instituted a procedure to track
                   the status of all CPARS evaluations.
                   If CPARS reports are not completed timely, the information they contain
                   cannot be used to support future award decisions. For the 25 CPARS
                   evaluations that had a final report date in CPARS, the time between the
                   end of the performance period and the date the report was finalized ranged
                   from 8 months to over 2 years. The average amount of time between the
                   end of the performance period and the date the CPARS report was
                   finalized was over 14 months.




                   33
                        CMS, MAC Contract Administration Guide, p. 114, June 2011.

Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                         16
                   CONCLUSION AND RECOMMENDATIONS
                   Given the billions of dollars awarded to MACs and the critical role they
                   play in administering the Medicare program, effective oversight of these
                   contractors by CMS is important to ensure that they are carrying out their
                   assigned tasks.
                   Although MACs met the majority of quality assurance standards reviewed
                   by CMS, they did not meet one-quarter of them. Additionally, CMS did
                   not require action plans for some unmet standards, and unmet standards
                   without action plans were almost four times more likely to have issues go
                   unresolved. Moreover, certain areas identified as problematic through
                   QASP reviews were not always included as metrics in MACs’ award fee
                   plans.
                   While CMS’s performance reviews of MACs were extensive, they were
                   not always completed timely. If performance reviews are not completed
                   timely, the information they contain may not be available to support future
                   award decisions. Additionally, two MACs consistently underperformed
                   across various CMS reviews. However, the 5-year timeframe under which
                   CMS must recompete MAC contracts limits CMS’s ability to solicit and
                   award new contracts when MACs are not meeting the agency’s
                   requirements.
                   It is important that CMS effectively oversee MACs to ensure that it is
                   obtaining the level of performance expected. Therefore, we recommend
                   that CMS:
                   Require action plans for all unmet QASP standards
                   Unmet QASP standards that did not have an action plan were almost
                   four times more likely to have issues go unresolved. CMS should require
                   action plans for all QASP standards not met to help ensure that MACs
                   resolve the issues.
                   Use QASP results to help select award fee metrics for review
                   and to establish award fee metrics for the “Medicare
                   secondary payer” area
                   CMS should ensure that MACs’ QASP performance informs the metrics it
                   selects for MACs’ award fee plans. The areas in which the MACs had the
                   greatest percentage of unmet QASP standards were “provider enrollment,”
                   “Medicare secondary payer,” and “appeals.” Although there were award
                   fee metrics for the “provider enrollment” and “appeals” areas, there were
                   no award fee metrics for the “Medicare secondary payer” area.
                   Additionally, provider enrollment metrics were included in only one
                   MAC’s award fee plan.


Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                          17
                   Seek legislative change to increase the time between MAC
                   contract competitions to give CMS more flexibility in awarding
                   new contracts when MACs are not meeting CMS requirements
                   MAC contracts are awarded for a base year and 4 option years. The
                   current law requires CMS to recompete MAC contracts at least every
                   5 years. MAC contracts are awarded by jurisdiction, and the periods of
                   performance for MAC contracts are staggered such that MAC contracts do
                   not end at the same time. According to CMS staff, this puts them in a
                   perpetual procurement cycle and makes it impractical to recompete a
                   MAC contract earlier than the mandatory 5-year recompete.
                   CMS should seek legislative change to allow more time between MAC
                   contract competitions. The intent of this recommendation is not to extend
                   the length of a contract for a poorly performing MAC. Instead, because of
                   the resources, time, and effort it takes to compete a contract, such a change
                   would allow CMS to use its time and resources effectively in soliciting
                   and awarding new contracts. By extending the overall contract term, the
                   time and resources that would have been used for the mandatory 5-year
                   recompete of a well-performing MAC’s contract could be used to conduct
                   an unforeseen procurement to replace a poorly performing MAC.
                   Meet timeframes for completing draft and final QASP summary
                   reports
                   CMS’s procedures for QASP reviews state that the draft QASP Summary
                   Report will be completed within 30 days of the end of the performance
                   period (i.e., evaluation period); however, none of the draft reports in our
                   review were completed within that timeframe. The procedures also state
                   that the final QASP Summary Report should be generated within 21 days
                   from the issuance of the draft report; however, almost none of the final
                   summary reports were issued within that timeframe.
                   Meet timeframes for completing award fee determinations
                   CMS’s MAC Contract Administration Guide states that award fee
                   determination letters will be sent to MACs within 90 days of the end of the
                   performance period (i.e., evaluation period); however, CMS sent only one
                   award fee determination letter within this timeframe.
                   Establish reasonable timeframes for issuing final CPARS
                   reports
                   CMS guidelines for completing CPARS evaluations do not include
                   timeframes for submitting the final reports; however, the average amount
                   of time between the end of the performance period and the date of the final
                   CPARS report was 428 days. Without a timely CPARS report, award
                   decisions may be made without comprehensive performance information.

Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                               18
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with all six of our recommendations. Regarding our first
                   recommendation, CMS stated that effective June 19, 2013, it began
                   requiring action plans for all QASP standards that were not met.
                   However, CMS noted that a request for an action plan may change as the
                   QASP report goes through the rebuttal process. For example, CMS stated
                   that sometimes corrective actions have already been taken after the issue
                   has been identified.
                   Regarding our second recommendation, CMS stated that it will continue
                   to examine the feasibility of developing award fee metrics for provider
                   enrollment and any other functional areas as warranted. However, CMS
                   added that when basic statement of work standards are not met, as for
                   example, in the case of Medicare secondary payer, it focuses its resources
                   on MACs’ achievement of basic standards prior to creating award fee
                   metrics.
                   Regarding our third recommendation, to increase the time between MAC
                   contract competitions, CMS stated that it will consider this
                   recommendation when it develops the next President’s budget proposal.
                   Regarding our fourth, fifth, and sixth recommendations, CMS stated that
                   effective July 26, 2013, it has revised its timeframes for completing QASP
                   summary reports, award fee determinations, and final CPARS reports.
                   QASP summary reports are now due 60 days after the end of the contract
                   year, award fee determinations are due 150 days after the end of the
                   contract year, and CPARS reports are due 120 days after the end of the
                   contract year. CMS noted that while it agrees with the importance of
                   meeting timeliness goals, it believes that the accuracy and completeness of
                   performance documents take precedence over timeliness. OIG agrees that
                   accuracy and completeness are important, but also stresses the importance
                   of timeliness. If performance reviews are not completed timely, the
                   information they contain may not be available to support future award
                   decisions.
                   For the full text of CMS’s comments, see Appendix D.




Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                          19
                  APPENDIX A
                  MACs’ Coverage Areas and Performance Periods Reviewed

                  Table A-1 provides the 13 MACs’ coverage areas and the associated performance periods
                  used for this review. These MACs had been operational for at least 2 years as of
                  January 2012. Performance periods ranged from 2008 to 2011.
                  Table A-1: MACs’ Coverage Areas and Performance Periods Reviewed

                                                                                                                                  Base Contract Amount
                                                                                           Performance           Performance
 MAC                                         MAC Coverage Area
                                                                                               Period 1              Period 2
                                                                                                                                   for Two Performance
                                                                                                                                                       1
                                                                                                                                               Periods

 Palmetto GBA, LLC                           Parts A and B for CA, HI, NV               1/25/09 –1/24/10      1/25/10 –1/24/11             $155,753,377

 Noridian Healthcare Solutions, LLC
                                             Parts A and B for AZ, MT, ND,
 (formerly Noridian Administrative                                                     7/31/09 – 7/30/10      7/31/10 – 7/30/11               $79,288,901
                                             SD, UT, WY
 Services, LLC)

                                             Parts A and B for CO, NM, OK,
 TrailBlazer Health Enterprises, LLC                                                      8/6/09 – 8/5/10       8/6/10 – 8/5/11            $170,778,910
                                             TX

 Wisconsin Physicians Services
                                             Parts A and B for IA, KS, MO, NE            9/10/08 – 9/9/09      9/10/09 – 9/9/10               $93,295,705
 Insurance Company


 First Coast Service Options, Inc.           Parts A and B for FL, PR, VI              9/16/08 – 9/15/09      9/16/09 – 9/15/10            $115,227,545


 Cahaba Government Benefit
                                             Parts A and B for AL, GA, TN              1/12/09 – 1/11/10       1/12/10–1/11/11             $104,328,164
 Administrators, LLC

 Novitas Solutions, Inc. (formerly           Parts A and B for DC, DE, MD,
                                                                                       3/01/09 – 2/28/10      3/01/10 – 2/28/11            $196,705,470
 Highmark Medicare Services, Inc.)           NJ, PA


 National Government Services, Inc.          Parts A and B for CT, NY                  3/18/09 – 3/17/10      3/18/10 – 3/17/11            $138,793,917

                                             Parts A and B for MA, ME, NH,
                                             RI, VT;
 NHIC, Corp.                                                                         11/14/08 – 11/13/09    11/14/09 – 11/13/10               $53,550,221
                                             Home Health and Hospice for CT,
                                             MA, ME, NH, RI, VT

                                             Durable Medical Equipment for
 NHIC, Corp.                                 DC, DE, CT, MA, MD, ME, NH,             12/30/08 – 12/29/09    12/30/09 – 12/29/10               $24,389,200
                                             NJ, NY, PA, RI, VT


                                             Durable Medical Equipment for IL,
 National Government Services, Inc.                                                  12/30/08 – 12/29/09    12/30/09 – 12/29/10               $38,102,255
                                             IN, KY, MI, MN, OH, WI

                                             Durable Medical Equipment for
 CGS Administrators, LLC (formerly           AL, AR, CO, FL, GA, LA, MS, NC,
                                                                                      12/1/08 – 11/30/09     12/1/09 – 11/30/10               $57,278,148
 CIGNA Government Services, LLC)             NM, OK, PR, TN, SC, VA, TX,
                                             WV
                                             Durable Medical Equipment for
 Noridian Healthcare Solutions, LLC
                                             AK, AZ, CA, HI, IA, ID, KS, MO,
 (formerly Noridian Administrative                                                   12/30/08 – 12/29/09     12/30/09 – 3/31/11               $41,690,071
                                             MT, ND, NE, NV, OR, SD, UT,
 Services, LLC)
                                             WA, WY
Source: Documentation collected from CMS on MAC performance periods and contract amounts, 2012.
1
  Base contract amount does not include the MAC’s award fee pool.




                  Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                                     20
APPENDIX B
Performance Areas in Quality Assurance Surveillance Plans

Table B-1 provides the QASP performance areas evaluated and a description of selected
standards within those areas for the MACs in our review. QASP standards are used to
evaluate MACs’ performance against statement of work requirements.

Table B-1: QASP Performance Areas Reviewed and Description of Selected Standards

 Performance Area                         Description of Selected Standards Within Each Area


                       The MAC shall reopen an initial determination or a redetermination to review a decision per
                       regulation, the Medicare Claims Processing Manual, and statement of work requirements.


                       Administrative Law Judge hearing decisions and Qualified Independent Contractor decisions
 Appeals               must be effectuated by the MAC within appropriate timeframes.


                       Redeterminations are successful when all redetermination notices are processed and mailed
                       within 60 calendar days.


                       Cost report acceptance is timely if it is completed within 30 days from the receipt date of the
                       provider’s cost report.


 Audit and             Cost reports are settled accurately when a CMS review determines compliance with Medicare
 Reimbursement         payment policy as defined in the Medicare Provider Reimbursement Manual.


                       Cost reports that do not require an audit are settled timely when the Notice of Program
                       Reimbursement is issued within 12 months of the acceptance of a cost report.


                       Claims are processed timely when 95 percent of claims are processed within the claims
                       payment floor and ceiling specified in the Medicare Claims Processing Manual. The contractor
                       must meet this standard on a monthly basis.


                       Communication is timely when CMS receives notification within 24 hours or within the same
 Claims Processing     business day of identification, if the problem may cause disruption of benefit payments beyond
                       a single provider.


                       Medicare Summary Notice (MSN) management is successful when the contractor accurately
                       generates and mails 98 percent of MSNs in accordance with Medicare Claims Processing
                       Manual instructions.


                                                                                                    Continued on next page




Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                                       21
Table B-1: QASP Performance Areas Reviewed and Description of Selected Standards
(Continued)

 Performance Area                          Description of Selected Standards Within Each Area


                       The contractor’s use of trust fund dollars is successful when it will not cause CMS to be cited for
                       financial-management-related deficiencies on the CMS annual CFO audit.


 Financial             The contractor’s debt referral procedures are successful when its eligible delinquent debt has
 Management            been referred by the 180th day of delinquency.


                       The contractor is able to obtain an unqualified opinion (no material weakness) on annual
                       SAS 70 reviews.


                       The contractor’s medical review strategy is successful when problems targeted in the strategy
                       are addressed during the fiscal year using the Progressive Corrective Action process and the
                       contractor can demonstrate a change in billing behavior.

 Medical Review

                       The contractor’s review is successful when it meets CMS’s requirement that demand bills from
                       skilled nursing facilities be processed accurately as referenced in the Medicare Program
                       Integrity Manual.



                       For Medicare secondary payer prepayment, 95 percent of all inquiries regarding Medicare
                       secondary payer claims shall be responded to within 45 calendar days of receipt of the inquiry.


                       Upon receipt of an incomplete primary payer notification, the contractor shall send a Medicare
 Medicare              secondary payer inquiry or assistance request transaction to the Coordination of Benefits
 Secondary Payer       Contractor within 1 business day of processing the claim.


                       For Medicare secondary payer postpayment, 95 percent of all Medicare secondary payer
                       supplier inquiries shall be acknowledged or responded to within 45 days of receipt.


                       All eligible debts are referred to the Department of the Treasury for cross-servicing when the
                       debt becomes 180 days delinquent.


                       Of all calls monitored for the quarter, the number of customer service representatives scoring as
                       "Achieves Expectations" or higher for Knowledge Skills shall be no less than 93 percent. This
                       standard shall be measured quarterly and shall be cumulative for the quarter.



 Provider Customer     Telephone inquiries are successful when the corporate quarterly call completion rate is
 Service Program       95 percent for interactive voice responses and 80 percent for customer service representatives.



                       The contractor shall maintain an average speed of answer of 60 seconds or less measured on a
                       quarterly basis.


                                                                                                    Continued on next page




Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                                       22
 Table B-1: QASP Performance Areas Reviewed and Description of Selected Standards
 (Continued)


                         The paper enrollment applications described in the statement of work shall be considered timely
                         processed when 80 percent of applications are processed within 60 calendar days of receipt or
                         sooner, 90 percent within 120 calendar days of receipt or sooner, and 99 percent within
                         180 calendar days of receipt.


 Provider                The contractor shall process 100 percent of all revocation actions in full accordance with all
 Enrollment              revocation instructions in the Medicare Program Integrity Manual.



                         The contractor shall process 100 percent of all provider enrollment appeals in full accordance
                         with all appeals instructions in the Medicare Program Integrity Manual.


Source: OIG’s review of MACs’ final QASP Summary Reports, 2012.




Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                                        23
APPENDIX C

Information on Award Fees
MAC contracts include an award fee that a MAC may earn if its performance exceeds
basic requirements, and CMS can include metrics in MACs’ award fee plans to encourage
MACs to improve their performance. This appendix provides a description of the award
fee metrics reviewed, the award fees earned by MAC, and the award fees earned by
metric.
Table C-1 shows the types of award fee metrics evaluated for the MACs in our review.
Table C-1: Award Fee Plan Metrics and Description

 Metric                                                             Description

                             Measures timeliness in processing and sending 100 percent of redetermination notices
                             within 60 calendar days of receipt.
 Appeals
                             Measures the accuracy of Medicare Redetermination Notices issued by the contractor,
                             fully or partially affirming denials of claims.


 Audit Quality               Measures the quality of desk reviews, audits, and/or reopenings.



                             Measures the timeliness of responses to complex inquiries forwarded from the
 Beneficiary Inquiries
                             Beneficiary Contact Center or CMS regional offices.



 Claims Processing           Measures the timeliness of processing clean electronic claims within the statutorily
 Timeliness                  specified timeframes.


                             Measures the contractor’s ability to reduce its error rate for improper Medicare payments.
 Comprehensive Error
 Rate Testing                Measures the contractor’s ability to achieve the Government Performance and Results
                             Act goal for Comprehensive Error Rate Testing.


                             Measures overall contract management. When evaluating this metric, CMS considers
 Contract Administration
                             cost, timeliness, staff, flexibility, deliverables, and communication.


 Decrease in Paper           Measures the contractor’s ability to decrease the number of paper remittance advices
 Remittance                  sent to providers in its jurisdiction.


 Increase in Electronic      Measures the contractor’s ability to increase the use of electronic funds transfer
 Funds Transfer              payments to existing Medicare providers.


                             Evaluates the probe findings letter sent to the provider/supplier as a result of medical
 Medical Review
                             review.


 Medicare Provider           Measures the contractor’s overall provider satisfaction as calculated by the Medicare
 Satisfaction Survey         Contractor Provider Satisfaction Survey.


                                                                                                    Continued on next page




Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                                       24
Table C-1: Award Fee Plan Metrics and Description (Continued)


            Metric                                                       Description



                                  Measures the timeliness of submitting overpayment information to the Program
                                  Safeguard Contractors (PSCs) or Zone Program Integrity Contractors (ZPICs).
 Program Integrity Support        Measures the contractor’s responsiveness to PSC or ZPIC requests for information.
                                  Measures the timeliness of adding a new provider to an established
                                  payments-suspension flag at the request of the PSC or ZPIC.




                                  Measures the accuracy with which customer service representatives responded to
                                  Medicare policy questions.
 Provider Customer                Measures the contractor’s ability to actively market and promote the benefits of being a
 Service                          member of the provider listserv(s).
                                  Measures the contractor’s rating on the Medicare Contractor Website Customer
                                  Satisfaction Survey.



                                  Measures timeliness of processing paper applications for provider enrollment.
 Provider Enrollment
                                  Measures timeliness of processing Web-based applications for provider enrollment.


 Qualified Independent
                                  Measures timeliness of Qualified Independent Contractor support.
 Contractor Support




 Systems Security                 Measures the contractor’s compliance with CMS’s system security standards.



Source: OIG’s review of MACs’ award fee determination letters, 2012.



Award Fees Earned by MACs

From an overall award fee pool of $39 million across two performance periods, MACs
earned two-thirds, or $26 million. MACs earned between 35 percent and 86 percent of
their respective award fee pools. MACs can earn none, some, or all of the award fee
associated with each metric. As shown in Table C-2, of the 314 award fee metrics CMS
assessed across 2 performance periods, MACs did not earn any award fee for 22 percent
of metrics. MACs earned all of the award fee for 51 percent of metrics and some award
fee for 27 percent of metrics.




Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                                           25
             Table C-2: Award Fees Earned by MAC
                                                                            Percentage of
                                                     Percentage of                                    Percentage of
                                 Number of                                        Metrics
                    1                              Metrics Not Met                                 Metrics Fully Met
              MAC                  Metrics                                   Partially Met
                                                    (No Award Fee                                    (All Award Fee
                                 Assessed                                   (Some Award
                                                           Earned)                                          Earned)
                                                                              Fee Earned)
              V                            27                    22%                    59%                       19%

              Y                            29                    55%                    14%                       31%

              R                            31                    23%                    39%                       39%

              X                            17                    29%                    29%                       41%

              Z                            17                    24%                    35%                       41%

              Q                            17                    12%                    41%                       47%

              U                            26                    19%                    23%                       58%

              P                            34                    24%                    18%                       59%

              T                            25                    20%                    20%                       60%

              S                            18                     6%                    33%                       61%

              N                            22                    14%                    23%                       64%

              W                            26                    19%                    12%                       69%

              O                            25                     4%                    20%                       76%

              Total                      314                     22%                    27%                       51%
             Source: OIG analysis of award fee determination letters, 2012. 

             1
               We randomly assigned a unique identifier (i.e., a letter) to each MAC in our review. Percentages across 

             some rows do not total 100 percent because of rounding. 



Amount and Percentage of Award Fees Earned by Metric
As shown in Table C-3, MACs did not earn any award fee for 68 of 314 metrics. Over two
performance periods, the award fee pool for metrics ranged from $20,546 to over
$14 million. The metrics assessed varied by MAC and performance period (i.e., not all
MACs were assessed on every metric). The $39 million total award fee pool represented
3 percent of the $1.3 billion in MAC contracts for the two performance periods reviewed.34
The metric associated with systems security represented 25 percent of all metrics (17 of 68)
for which MACs earned no award fee. All 13 MACs in our review did not earn any award
fee for the systems security metric in at least 1 performance period. Overall, MACs did not
earn $2.4 million of the $2.9 million of the available award fee pool for this metric. Appeals
represented 22 percent of the metrics (15 of 68) for which MACs earned no award fee.
Overall, MACs did not earn $2.4 million of the $4.7 million of the available award fee pool
for this metric. Two additional metrics—audit quality and Medicare provider satisfaction
survey—had a high percentage of award fees not earned; however, they were reviewed less
often and were associated with smaller potential award fees. Audit quality was assessed
twice and had an award fee pool of $46,065; MACs did not earn any award fee for this


34
     The $1.3 billion represents the MACs’ base contract amounts (i.e., it excludes any award fees).

Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                                         26
 metric. The metric associated with the Medicare provider satisfaction survey was assessed
 eight times and had an award fee pool of $357,081; MACs did not earn $299,541 of the
 available award fee pool for this metric.
 The contract administration metric is always included in MACs’ award fee plans and
 represented over one-third of the total award fee pool ($14 million of $39 million) for the
 performance periods reviewed. Overall, MACs did not earn 31 percent of the available
 award fee pool for contract administration.
Table C-3: Amount and Percentage of Award Fees Earned by Metric
                                                        Number         Number of
                                                                                                  Award Fee     Percentage
                                                       of Times             Times   Award Fee
 Metric                                                                                                 Not       of Award
                                                          Metric       Award Fee         Pool
                                                                                                    Earned      Fee Earned
                                                      Assessed         Not Earned

 Audit Quality                                                    2             2      $46,065       $46,065            0%

 Medicare Provider Satisfaction Survey                            8             5     $357,081      $299,541            16%

 Systems Security                                                23            17    $2,917,288    $2,441,707           16%

 Appeals                                                         43            15    $4,735,906    $2,438,800           49%

 Contract Administration                                         26             2   $14,174,547    $4,326,992           69%

 Decrease in Paper Remittance                                     5             1     $304,808       $92,356            70%

 Provider Customer Service                                       51            10    $6,453,814    $1,864,434           71%

 Comprehensive Error Rate Testing                                12             4     $750,599      $187,432            75%

 Program Integrity Support                                       47             6    $4,722,686     $733,245            84%

 Claims Processing Timeliness                                    22             0    $1,201,600     $182,850            85%

 Beneficiary Inquiries                                           43             4    $1,670,911     $161,458            90%

 Qualified Independent Contractor Support                        27             2    $1,375,315     $115,250            92%

 Provider Enrollment                                              2             0     $164,757            $0         100%

 Medical Review                                                   1             0      $20,546            $0         100%

 Increase in Electronic Funds Transfer                            2             0     $128,602            $0         100%

   Total                                                         314           68   $39,024,523   $12,890,130           67%

Source: OIG analysis of award fee determination letters, 2012.




 Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                                                27
                   APPENDIX D
                   Agency Comments




   (t
    r""'"".._

     ~s~
                 DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Cen1ers for Medicare & Medicaid Services


                                                                                           Administrator
                                                                                           Washington. DC 20201




                DATE:            NOV Z1 2013

                TO: 	          Daniel R . Levinson 

                               !nspect.o r General 


                FROM: 	        Mar'flyn lta~nncr 
/S/
                               Administrator 


                 SlJBJECT: 	Office of Inspector General (OIG) Draft Report: "Medicare Administrative
                            Contractors' Performance" (OEI-03-11-00740)

                Thank you for the opportunity to review and respond on the above subject OIG Draft Report.
                Given the billions of dollars awarded to Medicare Administrative Contractors (MACs) and the
                critical role they play in the administration of the Medicare program, effective oversight of these
                contractors' performance is important to ensure that they are adequately processing claims and
                performing other assigned tasks.

                The OIG recommendations and CMS responses to those recommendations are discussed below.

                OIG Recommendation

                The OIG recommends that CMS require action plans for all unmet QASP standards.

                CMS Response

                '!be CMS concurs with the recommendation. Effective June 19, 2013, C!\IS began requiring
                action plans for all Quality Assurance Surveillance Plans (QASP) standards that were not met.
                However, we note that a request for an action plan may change as the QASP report goes through
                the rebuttal process. For example, sometimes corrective actions have already been taken after
                the issue has been identified. Moreover, the CMS works closely with the Business Function
                Leads, Technical Monitors, and the Contracting Officer's Representative to determine if an
                action plan is needed based on specific circumstances. For example, if the contractor did not
                meet a I 00 percent standard in only one month in a period of performance, an action plan may
                not be required for that period of performance. In those instances, CMS makes a determination
                if an action plan is needed.

                OIG Recommendation

                The OIG recommends that CMS use QASP results to help select award fee metrics for review
                and to establish award fee metrics for the " Medicare secondary payer" area.




Medicare Administrative Contractors' Performance (OEl-03-11 -00740)                                                                   28
Medicare Administrative Contractors’ Performance (OEI-03-11-00740)   29
Medicare Administrative Contractors’ Performance (OEI-03-11-00740)   30
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office, and Linda M. Ragone, Deputy Regional Inspector General.
                   Tara Bernabe served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff from the Philadelphia regional office who
                   conducted the study include Nancy J. Molyneaux and Sunil Patel. Central
                   office staff who provided support include Scott Manley and
                   Christine Moritz.




Medicare Administrative Contractors’ Performance (OEI-03-11-00740)                         31
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
